CERTIFICATE OF SERVICE
No. TBD
Alaa Elkharwily
Petitioners)
v.
Franciscan Health System
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of peijury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Alaa
Elkharwily Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michael Madden
Bennett Bigelow & Leedom P.S.
Suite 1500
601 Union Street
Seattle, WA 98101-1397
(206) 622-5511
Counselfor Franciscan Health System

Lucas'OeDeus

December 4, 2019
SCP Tracking: Elkharwily-220 S Broadway, Suite 1508-Cover White

